TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                    Initial Published Guidance for American
                    Recovery and Reinvestment Act of 2009
                         Bonds Was Complete, Accurate,
                                  and Consistent



                                          March 16, 2010

                              Reference Number: 2010-11-035




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                       HIGHLIGHTS


INITIAL PUBLISHED GUIDANCE FOR                         bond requirements of the Recovery Act. The
AMERICAN RECOVERY AND                                  notices provided information to help bond
REINVESTMENT ACT OF 2009 BONDS WAS                     issuers understand how to issue tax-exempt
COMPLETE, ACCURATE, AND                                and tax credit bonds as provided for by the
                                                       Recovery Act.
CONSISTENT
                                                       In addition, IRS management plans to
                                                       update expiring Recovery Act guidance and
Highlights                                             provide supplemental information in the form
                                                       of published guidance by June 30, 2010.
Final Report issued on March 16, 2010
                                                       WHAT TIGTA RECOMMENDED
Highlights of Report Number: 2010-11-035 to the        There were no recommendations in this report.
Internal Revenue Service Chief Counsel and             However, key IRS management officials
Commissioner for the Tax Exempt and Government         reviewed it prior to issuance and agreed with
Entities Division.                                     the facts and conclusions presented.
IMPACT ON TAXPAYERS
The American Recovery and Reinvestment Act of
2009 (Recovery Act) authorizes new and expanded
bond financing subsidies of more than $57.8 billion.
However, this figure could be much higher because
one type of tax credit bond, known as Build
America Bonds, was not given a limit. These
financing subsidies enable State and local
governments to borrow at lower costs for capital
projects and also target programs for schools and
energy projects. The Internal Revenue Service
(IRS) quickly published guidance to help bond
issuers understand how to issue tax-exempt and
tax credit bonds intended to stimulate the economy
by preserving and creating jobs.
WHY TIGTA DID THE AUDIT
The Recovery Act contains spending and tax
provisions of $787 billion over 10 years and is
intended to preserve and create jobs, reduce home
foreclosures and college costs, provide health
insurance and unemployment benefits, promote
critical public infrastructure investment, and
stabilize the budgets of State and local
governments. The overall objective of this review
was to determine whether IRS published guidance
was complete, accurate, and consistent to allow
issuance of tax-exempt and tax credit bonds in
accordance with the Recovery Act.
WHAT TIGTA FOUND
The initial guidance published by the IRS in the
form of notices was complete, accurate, and
consistent with the tax-exempt and tax credit
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 16, 2010


 MEMORANDUM FOR CHIEF COUNSEL
                COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Initial Published Guidance for American
                                 Recovery and Reinvestment Act of 2009 Bonds Was Complete,
                                 Accurate, and Consistent (Audit # 200910131)

 This report presents the results of our review of Internal Revenue Service (IRS) published
 guidance for American Recovery and Reinvestment Act of 2009 (Recovery Act) 1 tax-exempt
 and tax credit bonds. This review was conducted as part of the Treasury Inspector General for
 Tax Administration Fiscal Year 2010 Annual Audit Plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 We did not make any recommendations in this report. However, key IRS management officials
 reviewed it prior to issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the IRS managers affected by the report finding.
 Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations), at
 (202) 622-8500.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                        Initial Published Guidance for American
                     Recovery and Reinvestment Act of 2009 Bonds
                       Was Complete, Accurate, and Consistent




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Published Guidance Is Complete, Accurate, and Consistent
          With the Recovery Act’s Bond Provisions ...................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Tax-Exempt and Tax Credit Bonds
          Included in the Recovery Act .......................................................................Page 10
         Initial Published Guidance for American
      Recovery and Reinvestment Act of 2009 Bonds
        Was Complete, Accurate, and Consistent




                     Abbreviations

IRS            Internal Revenue Service
TEB            Tax Exempt Bonds
                     Initial Published Guidance for American
                  Recovery and Reinvestment Act of 2009 Bonds
                    Was Complete, Accurate, and Consistent




                                            Background

The American Recovery and Reinvestment Act of 2009
(Recovery Act) 1 was enacted on February 17, 2009, as
                                                               The Recovery Act authorizes the
an emergency response to an economic crisis unlike any          issuance of tax-exempt and tax
since the Great Depression. The Recovery Act contains             credit bonds which provide
spending and tax provisions of $787 billion over                  State and local governments
10 years to preserve or create an estimated 3.5 million            fiscal relief needed to help
jobs by the end of September 2010, reduce home                       stimulate the economy.
foreclosures and college costs, target programs for
schools and energy projects, provide health insurance
and unemployment benefits, and enable State and local governments to borrow at lower costs for
capital projects to promote critical public infrastructure investment and stabilize their budgets.
The Recovery Act contains multiple provisions that authorize the issuance of additional
tax-exempt bonds and greatly expands the market for tax credit bonds.2
    •   Tax-exempt bonds are issued by State or local governments, where the interest income
        paid by the bond issuer to bond investors is not taxable by the Federal Government.
    •   Tax credit bonds differ from traditional tax-exempt bonds. If bonds are issued as tax
        credit bonds, investors must include the total interest income received in gross income
        and claim a Federal tax credit equal to a percentage of the interest income received or the
        bond’s face value for a limited number of years.
In Calendar Year 2006, State and local governments issued $428.3 billion in tax-exempt bonds, 3
and tax credit bonds were a small part of the bond market. The Recovery Act increased
tax-exempt bond financing by $17 billion. However, tax credit bonds were significantly
increased by at least $28.4 billion. This figure could be much higher because one type of tax
credit bond, known as Build America Bonds, was not limited in the total dollar amount that can
be issued.
Prior to enactment of the Recovery Act, there had been no substantive legislative changes for
tax-exempt and tax credit bonds in approximately 20 years. Therefore, it was important that the
Internal Revenue Service (IRS) provide published guidance to help with the issuance of

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  See Appendix IV for detailed provisions of tax-exempt and tax credit bonds in the Recovery Act.
3
  This information was published by the Internal Revenue Service Statistics of Income Division and was the latest
year available. Since the accuracy of this Internal Revenue Service-provided statistic did not affect the
accomplishment of our audit objective, we did not verify its accuracy.
                                                                                                           Page 1
                        Initial Published Guidance for American
                     Recovery and Reinvestment Act of 2009 Bonds
                       Was Complete, Accurate, and Consistent



tax-exempt and tax credit bonds that comply with the Recovery Act provisions, which is critical
to stimulating the economies of State and local governments.
The IRS Office of Chief Counsel has responsibility for management and operation of the
published guidance program. This includes identifying when published guidance is needed,
drafting the guidance to provide information for issuance of bonds that comply with the tax laws,
and providing information that helps IRS personnel apply the tax laws correctly and uniformly.
The Tax Exempt Bonds (TEB) office within the Tax Exempt and Government Entities Division
is responsible for administering Federal tax law applicable to tax-exempt and tax credit bonds.
Although the Recovery Act bond provisions share some characteristics of previous tax-exempt or
tax credit bonds, each new or modified bond also brings individual attributes such as volume cap
amounts, 4 direct payments, 5 or credits to taxable income that present additional complexity for
tax administration.
This review was performed at the Office of Chief Counsel Headquarters and the Tax Exempt and
Government Entities Division TEB Headquarters Office in Washington, D.C., during the period
September through December 2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




4
    A maximum dollar amount of bonds that can be issued during a specific time period.
5
    A payment to State or local government bond issuers in the form of a Federal subsidy for specific types of bonds.
                                                                                                               Page 2
                      Initial Published Guidance for American
                   Recovery and Reinvestment Act of 2009 Bonds
                     Was Complete, Accurate, and Consistent




                                       Results of Review

Published Guidance Is Complete, Accurate, and Consistent With the
Recovery Act’s Bond Provisions
The initial guidance published by the IRS in the form of notices 6 was complete, 7 accurate, and
consistent with the tax-exempt and tax credit bond requirements of the Recovery Act. The
notices were issued quickly to help bond issuers understand how to issue tax-exempt and tax
credit bonds intended to stimulate the economy by preserving and creating jobs.

The Office of Chief Counsel and other offices took action to develop Recovery
Act bond guidance
IRS Office of Chief Counsel management began coordinating with the IRS TEB and Indian
Tribal Governments offices; the Office of Tax Policy, Department of the Treasury; and the
Bureau of Indian Affairs, Department of the Interior, approximately 1 month before enactment of
the Recovery Act on February 17, 2009. Between April and July 2009, seven notices were
developed, approved, and published as guidance for Recovery Act tax-exempt and tax credit
bonds. The seven notices are also included in the applicable Internal Revenue Bulletin 8 and
posted to the IRS Internet web site (IRS.gov) to make them easily available to the public.
Each of the seven notices included the following information 1) description of the bond and its
purpose; 2) requirements to issue the bond; 3) the tax credit percentage, where applicable;
4) instructions to receive the tax credit or Federal direct payment; 5) volume cap amounts and
allocation instructions, where applicable; 6) applications to apply for volume cap amount, where
applicable; and 7) IRS reporting requirements.
Figure 1 identifies the notices, date of publication, and the respective tax-exempt and tax credit
bonds.



6
  Notices are a public pronouncement by the IRS that contains guidance that involves substantive interpretations of
the Internal Revenue Code or the law.
7
  The Treasury Inspector General for Tax Administration defines complete as addressing all Recovery Act bond
provisions. This is not an indication that the current guidance is final and that additional guidance will not be
issued. The IRS can issue additional guidance as issues arise or when interpretations of the law are needed. In
addition, the Tribal Economic Development Bonds Notice did not contain the effective date of the Recovery Act
provision. This notice was not considered to be incomplete because it is an interpretation of laws already in effect.
8
  The Internal Revenue Bulletin is the authoritative instrument of the IRS Commissioner for announcing official
rulings and procedures.
                                                                                                              Page 3
                      Initial Published Guidance for American
                   Recovery and Reinvestment Act of 2009 Bonds
                     Was Complete, Accurate, and Consistent



                       Figure 1: IRS Notices Related to Tax-Exempt and
                                      Tax Credit Bonds
                                  Date of
                                  Notice
                Notice          Publication                                 Bond
               2009-26           April 2009                       Build America Bond
               2009-29           April 2009             Qualified Energy Conservation Bond
               2009-30           April 2009                 Qualified Zone Academy Bond
               2009-33           April 2009              New Clean Renewable Energy Bond
               2009-35           April 2009              Qualified School Construction Bond
               2009-50           June 2009         Recovery Zone Economic Development Bond
                                                        and Recovery Zone Facility Bond
               2009-51           July 2009               Tribal Economic Development Bond
            Source: Internal Revenue Bulletins dated April 20, 2009; April 27, 2009; June 29, 2009; and
            July 13, 2009.

To determine whether IRS management developed notices that were complete, accurate, and
consistent with the tax-exempt and tax credit bond provisions included in the Recovery Act, we
traced and compared 9 each provision with information provided in the notices and identified the
following:
    •    All bond provisions in the Recovery Act were included in the respective notices. As a
         result, we determined the published guidance was complete.
    •    All bond provisions in the Recovery Act were correctly stated in the respective notices.
         As a result, we determined the published guidance was accurate.
    •    All bond provisions in the Recovery Act were free of contradiction in the respective
         notices. As a result, we determined the published guidance was consistent.
In addition, IRS management included information in the notices for the public to contact Office
of the Chief Counsel staff with any questions, comments, or concerns about the Recovery Act
tax-exempt and tax credit bond provisions. Each of the seven notices includes the names and
telephone numbers of IRS Office of Chief Counsel staff members who prepared the notices.
Also, one notice includes the name and telephone number of two TEB office staff members, and


9
  Provisions included in other public laws that created the existing tax credit bonds were also traced and compared to
the respective notices.
                                                                                                             Page 4
                     Initial Published Guidance for American
                  Recovery and Reinvestment Act of 2009 Bonds
                    Was Complete, Accurate, and Consistent



one notice includes the name and telephone number of an official of the Bureau of Indian
Affairs. Including contact information in notices is a standard IRS practice. Therefore, State,
local, and tribal government officials as well as professional organizations communicated
directly with knowledgeable IRS officials to ask specific questions pertaining to Recovery Act
bonds. 10

The Office of Chief Counsel plans to issue additional Recovery Act bond
guidance
IRS Office of the Chief Counsel management stated the initial seven notices were successful in
providing information to help bond issuers understand how to issue Recovery Act tax-exempt
and tax credit bonds. After publishing the initial seven notices, IRS Office of Chief Counsel
management also decided to update expiring Recovery Act guidance and provide supplemental
information in the form of published guidance. By June 2010, the IRS plans to publish
additional guidance for the following:
     •   General Guidance for Tax Credit Bonds – This will include an explanation of legal
         requirements for all tax credit bonds, including those in the Recovery Act.
     •   Qualified Zone Academy Bonds – Final regulations will be issued.
     •   Qualified School Construction Bonds – The volume cap allocation amounts expired on
         December 31, 2009, and will be updated.
     •   Build America Bonds – An explanation of IRS administrative requirements will be
         published.
This supplemental guidance is included in the IRS Office of the Chief Counsel Business
Year 2009-2010 Priority Guidance Plan, 11 which addresses the most important taxpayer and tax
administration issues needing clarification during the business year.




10
  It was not in the scope of this audit to review specific inquiries and associated responses.
11
  The Priority Guidance Plan is the business year plan for the published guidance program. The business year
begins July 1 and ends June 30.
                                                                                                          Page 5
                     Initial Published Guidance for American
                  Recovery and Reinvestment Act of 2009 Bonds
                    Was Complete, Accurate, and Consistent



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether IRS published guidance was complete, 1
accurate, and consistent to allow issuance of tax-exempt and tax credit bonds in accordance with
the American Recovery and Reinvestment Act of 2009 (Recovery Act). 2 To accomplish our
objective, we:
I.      Identified Recovery Act tax-exempt and tax credit bond provisions.
        A. Reviewed the Recovery Act to identify the tax-exempt and tax credit bond provisions
           and related requirements (e.g., new bonds or modifications to existing bonds such as
           changes to volume cap amounts or allocations rules, etc.).
        B. Reviewed the Internal Revenue Code, other pertinent public laws, and the Office of
           Management and Budget Implementing Guidance for the Reports on Use of Funds
           Pursuant to the American Recovery and Reinvestment Act of 2009 (M-09-21, issued
           June 22, 2009) to identify the Recovery Act’s impact on tax-exempt and tax credit
           bonds existing provisions and related requirements (e.g., new bonds or modifications
           to existing bonds such as changes to volume cap amounts or allocations rules, etc.).
II.     Identified actions planned or taken by the TEB office or IRS management to develop and
        provide bond issuers with published guidance on tax-exempt and tax credit bond
        provisions included in the Recovery Act.
        A. Discussed with the TEB office and IRS management actions planned (e.g., providing
           additional guidance) or taken by their offices or other IRS offices to develop and
           provide published Recovery Act bond guidance.
        B. Obtained information (i.e., notices) developed by TEB office management or other
           IRS offices that provided published guidance.
        C. Identified the processes implemented to address stakeholders’ (e.g., bond issuers)
           questions and concerns about Recovery Act bond provisions.




1
  The Treasury Inspector General for Tax Administration defines complete as addressing all Recovery Act bond
provisions.
2
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                         Page 6
                  Initial Published Guidance for American
               Recovery and Reinvestment Act of 2009 Bonds
                 Was Complete, Accurate, and Consistent



III.   Evaluated the Recovery Act bond published guidance developed by the TEB office and
       other IRS offices and determined if it was complete, accurate, and consistent with the
       bond provisions and requirements in the Recovery Act.
       A. Reviewed and compared the Recovery Act bond guidance developed by the
          TEB office and IRS management with the applicable tax-exempt and tax credit
          provisions identified in the Recovery Act, Internal Revenue Code, and other public
          laws.
       B. Determined whether the Recovery Act bond guidance developed by the TEB office
          and IRS management was complete, accurate, and consistent with bond provisions
          and related requirements included in the Recovery Act.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Internal Revenue Code, the American
Recovery and Reinvestment Act of 2009, and TEB and Chief Counsel office policies and
procedures for developing and issuing published guidance. We evaluated these controls by
interviewing management, reviewing applicable information, and comparing published guidance
to the Recovery Act.




                                                                                         Page 7
                 Initial Published Guidance for American
              Recovery and Reinvestment Act of 2009 Bonds
                Was Complete, Accurate, and Consistent



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Deadra M. English, Lead Auditor
Cheryl J. Medina, Senior Auditor




                                                                                   Page 8
                 Initial Published Guidance for American
              Recovery and Reinvestment Act of 2009 Bonds
                Was Complete, Accurate, and Consistent



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Associate Chief Counsel, Financial Institutions and Products CC:FIP
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division SE:T:GE:TEB
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Counsel CC
       Director, Communications and Liaison, Tax Exempt and Government Entities
       Division SE:T:CL




                                                                                Page 9
                      Initial Published Guidance for American
                   Recovery and Reinvestment Act of 2009 Bonds
                     Was Complete, Accurate, and Consistent



                                                                                                  Appendix IV

     Tax-Exempt and Tax Credit Bonds Included in the
                     Recovery Act

Figures 1 and 2 identify the tax-exempt and tax credit bonds included in the American Recovery
and Reinvestment Act of 2009 (Recovery Act). 1
                 Figure 1: Tax-Exempt Bonds Included in the Recovery Act
    Tax-Exempt              Authorized
      Bonds              Issuance Amount                                  Purpose of Bond
Recovery Zone            $15 billion before        A type of private activity bond 2 that can be used to
Facility Bonds            January 1, 2011          finance certain kinds of business development
                                                   activities in areas of significant economic distress.
Tribal Economic          $1 billion through A type of bond issued by tribal governments to finance
Development             December 31, 2010 3 any project on Indian reservations, except gaming
Bonds                                       activities. These bonds can be issued tax-exempt or
                         $1 billion through
                                            direct payment.
                        December 31, 2011
Source: Treasury Inspector General for Tax Administration analysis of the Recovery Act bond provisions.




1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Private activity bonds are issued by or on behalf of State or local governments for the purpose of providing special
financing benefits for qualified projects. The financing is most often for projects of a private user, but have some
public benefit and the government generally does not pledge its credit.
3
  Tribal Economic Development Bonds are issued in two allocations. The first allocation ends December 31, 2010,
and the second allocation ends December 31, 2011. Bonds not issued by those dates for either allocation are
forfeited.
                                                                                                             Page 10
                     Initial Published Guidance for American
                  Recovery and Reinvestment Act of 2009 Bonds
                    Was Complete, Accurate, and Consistent



                 Figure 2: Tax Credit Bonds Included in the Recovery Act
    Tax Credit            Authorized
      Bonds            Issuance Amount                                Purpose of Bond
Build America           Unlimited before        There are two types of Build America Bonds; tax
Bonds                   January 1, 2011         credit and direct payment.
                                                   •   Build America Tax Credit bonds can be issued to
                                                       finance any governmental purpose for which
                                                       tax-exempt governmental bonds (excluding
                                                       private activity bonds) can be issued. Federal tax
                                                       credits are provided to investors in an amount
                                                       equal to 35 percent of the total coupon interest
                                                       payable by the issuer.
                                                   •   Build America Direct Payment bonds are more
                                                       limited in their use than are the credit option.
                                                       Issuers receive a Federal subsidy in the amount
                                                       of 35 percent of the interest payment.
Qualified School         $11.2 billion for      These bonds are issued to finance the construction,
Construction                Calendar            rehabilitation, or repair of public school facilities or
Bonds                      Year 2009 4          acquire the land for such a facility. Bond investors
                                                receive a Federal tax credit of 70 percent of the face
                       $11.2 billion for
                                                amount of the bonds purchased.
                      Calendar Year 2010
                        Unlimited after
                      Calendar Year 2010
Recovery Zone           $10 billion before      These bonds are issued to finance economic
Economic                 January 1, 2011        development and activity in areas designated as
Development                                     recovery or empowerment zones. Bond investors
Bonds                                           receive a Federal tax credit of 45 percent of interest
                                                income received or bond issuers receive a direct
                                                Federal payment of 45 percent of the interest income
                                                paid.




4
 The $11.2 billion allocation for Qualified School Construction Bonds for Calendar Years 2009 and 2010 includes
$200 million each year for schools funded by the Bureau of Indian Affairs.
                                                                                                       Page 11
                     Initial Published Guidance for American
                  Recovery and Reinvestment Act of 2009 Bonds
                    Was Complete, Accurate, and Consistent



   Tax Credit             Authorized
     Bonds             Issuance Amount                                Purpose of Bond
New Clean                  Increased to     These bonds are issued to finance renewable energy
Renewable              $2.4 billion through facilities, such as wind, geothermal, landfill gas, or
Energy Bonds           December 31, 2009 solar energy, and must be owned by a public power
                                            provider, State, or local government body or
                                            cooperative electric company. Bond investors receive
                                            a Federal tax credit of 70 percent of the face amount of
                                            the bonds purchased.
Qualified Energy          Increased to          These bonds are issued to finance energy conservation
Conservation            $3.2 billion after      efforts such as reducing energy consumption in public
Bonds                   October 3, 2008         buildings and mass transportation or implementing
                                                green communities programs. Bond investors receive
                                                a Federal tax credit of 70 percent of the face amount of
                                                the bonds purchased.
Qualified Zone        $2.8 billion through These bonds are issued to finance public school
Academy Bonds         December 31, 2010 programs designed in cooperation with business to
                                           enhance the academic curriculum, increase graduation
                        Unlimited after
                                           and employment rates, and prepare students for college
                      Calendar Year 2010
                                           and the workforce. Bond investors receive a Federal
                                           tax credit of 70 percent of the face amount of the
                                           bonds purchased.
Source: Treasury Inspector General for Tax Administration analysis of the Recovery Act bond provisions.




                                                                                                          Page 12
